                          August 25, 2000

MEMORANDUM

TO:         Nancy Estes, RFFPO/Mali

FROM:             Henry L. Barrett, RIG/Dakar

SUBJECT:    Audit of Internal Controls over USAID Relief
            Commodities at the Port of Freetown in Sierra
            Leone, Audit Report No. 7-636-00-008-P


This memorandum is our report on the subject audit.    We
have considered your comments to the draft report and
have included them in their entirety as Appendix II. The
report contains one recommendation.       Based on your
comments to the draft report, we consider that RFFPO/Mali
has made a management decision on the recommendation.
Please notify USAID’s Management Innovation and Control
Division(M/MPI/MIC) when final action is completed for
the recommendation.

I appreciate the cooperation and courtesies extended to
the audit team during the course of this audit.

________________________________________________________________________
_
Background
Sierra Leone is a small West African country of about 4.2
million people that is still suffering from the effects
of a bitter civil war that started in 1991.       In that
year, the Revolutionary United Front (RUF) launched its
campaign against the Government of Sierra Leone (GOSL),
which most unfortunately was characterized by brutal
killings, amputations, decapitations, mutilations, rape,
arson, abduction, political instability, and economic
chaos.   A  peace  agreement   was  signed   between  the
Revolutionary United Front and the Government of Sierra
Leone on July 7, 1999.    Although fighting subsequently
broke out after the signing, the situation was under
control for the most part (at the time of the audit),
primarily because of intervention by the international
community. Some degree of peace and stability is ensured
by the presence of the United Nations Observer Mission in
Sierra Leone (UNOMSIL) and troops of the Nigerian-led

                                   1
military observer group of West African countries known
by the acronym ECOMOG1.

According to USAID’s Bureau for Humanitarian Response
(BHR), Sierra Leone received about $254 million in United
States Government (USG) assistance between fiscal years
1991 and 1998. This assistance emanated from several
sources including: (1) USAID’s Office of U.S. Foreign
Disaster Assistance (BHR/OFDA), (2) USAID’s Office of
Food   for   Peace   (BHR/FFP),   (3)  USAID’s  Office  of
Transition Initiatives (BHR/OTI), and (4) the State
Department’s    Bureau   for   Population,  Refugees,  and
Migration (State/PRM). Assistance included emergency food
aid, medical and health relief; support for agricultural
recovery, refugees, internally displaced persons, and
other war-affected people; and technical assistance to
the GOSL.

According to BHR, USG humanitarian assistance to Sierra
Leone totaled $34.8 million for fiscal year 1999.      Of
this total, BHR/FFP provided $15.4 million in food aid to
Sierra Leone and also provided additional food aid
resources to the World Food Program (WFP).       BHR/OFDA
provided   $14.4   million   in   emergency  humanitarian
assistance.   The remainder was provided by BHR/OTI for
civil society and support of the peace accord, the Bureau
for Africa to support a children’s tracing network, and
State/PRM for Sierra Leonean refugees.

Moreover,  a   reasonably  high   level  of   humanitarian
assistance is expected to continue.      For fiscal year
2000, Secretary of State Albright promised another $55
million after she visited Sierra Leone in October 1999.

The USAID food aid assistance to Sierra Leone is managed
by   the  Regional   Food  for   Peace  Office   in  Mali
(RFFPO/Mali).   A Committee on Food Aid (CFA), which is
chaired by WFP, manages coordination of the humanitarian
relief effort in Sierra Leone. USAID’s cooperating food
aid sponsors in Sierra Leone are members of the CFA and
include CARE, Catholic Relief Services (CRS), and World
Vision International (WVI).   Meetings are held weekly to
coordinate and report on issues involving the relief
effort.

________________________________________________________________________
_
Audit Objective
The   Office     of   the    Regional       Inspector    General      in   Dakar

1
 This acronym means Economic Community of West African States Cease-Fire
Monitoring Group


                                        2
audited   the   internal  controls   over  USAID  relief
commodities at the Freetown port     in Sierra Leone to
answer the following question:



Did the RFFPO/Mali and the cooperating sponsors ensure
the necessary internal controls over relief commodities
from Freetown port entry to port exit in accordance with
USAID policies and procedures?

Appendix I contains a discussion of the scope and
methodology  for   the  audit.     Appendix  II   includes
management’s full response to our draft audit report.

_________________________________________________________
__
Audit Findings
Did the RFFPO/Mali and the cooperating sponsors ensure
the necessary internal controls over relief commodities
from Freetown port entry to port exit in accordance with
USAID policies and procedures?

The RFFPO/Mali and the cooperating sponsors (CS) did not
ensure the establishment of necessary internal controls
over relief commodities from Freetown port entry to port
exit in accordance with USAID policies and procedures.
Although losses may not have been excessive for an entire
fiscal year, the lack of important internal controls led
to significant losses during a recent vessel’s commodity
discharge.

The RFFPO/Mali and the cooperating sponsors were impeded
by several factors from establishing adequate internal
controls over the movement of USG commodities     from the
shipping vessel   to the cooperating sponsors’ warehouses
outside the port.     Chief among these factors were: (1)
lack of USAID monitoring capability in Sierra Leone, (2)
inefficient port operation and (3) continuing civil
strife.     The next three paragraphs describe those
factors,   which   are   relevant   in  understanding  the
operational conditions and hindrances which prevented
USAID   personnel   and   the  cooperating  sponsors  from
ensuring adequate internal controls at the Freetown port.

USAID does not have a representative in Sierra Leone to
monitor   or  oversee   its   interest  in   this  large
humanitarian effort.   The monitoring responsibility is
primarily conducted by the Emergency Relief Coordinator
(ERC) located in Conakry, Guinea who reports to the
Regional Food for Peace Office in Bamako, Mali. The ERC
also has other responsibilities and oversees other

                            3
emergency programs in West Africa. Also, the ERC is only
able to visit Sierra Leone with approved clearance from
the U.S Ambassador to Sierra Leone, and when USG provided
accommodations are available since the hotels were all
severely damaged during the war.        Due to security
restrictions for American citizens, the current ERC, who
has held the position for the past two years, could not
monitor the emergency relief program outside of Freetown.

According to WFP officials, the Freetown port is the most
expensive port in West Africa in large part because of
its inefficiency and poor security.      Port charges are
higher because the ship needs more time to unload its
cargo and losses are greater because of poor security,
obsolete equipment, and inadequate training of stevedore
personnel.     The  Freetown   port  has   antiquated and
inadequate equipment and facilities, security is poor,
and the port suffered heavy damage during the past two
years of the civil war.      As an example, rebel forces
vandalized the port in January 1999 (prior to the peace
accord) and stole most of the supplies and equipment.
The cargo handling equipment, which is very important for
the efficient discharge of commodities, is badly worn and
in need of replacement. In addition, the port lacks much
of the equipment to facilitate container operations.




      These lifting cranes were not used for years,
               according to port officials.


In addition, there is limited fire-fighting capacity at


                            4
the port, which poses a safety hazard and a potential
security risk.   Neither the Government of Sierra Leone,
nor the Sierra Leone Port Authority (SLPA) has the monies
to acquire the equipment necessary to improve port
capacity and rehabilitate existing facilities.


Although a peace accord between the GOSL and the RUF was
signed in July 1999, civil strife has continued. Acts of
violence such as looting and commandeering of vehicles
continue.   Poor road conditions and inadequate supplies
of   essential  commodities,   such  as   gasoline,  also
complicate the distribution of relief supplies.   Acts of
violence are directed at international personnel as well
as the indigenous civilian population.    This persistent
state of insecurity has hindered the assistance effort,
not only at the Freetown port but also throughout the
country.




Victims of the civil war at an amputee camp in Freetown.

To address the problems at the Freetown port, WFP has
proposed a project to rehabilitate the port to improve
port capacity, including cargo handling capacity and
security. According to WFP, and based on our own
observation, implementing this proposal should increase
the general efficiency of port operations; reduce the
risk of demurrage, often incurred due to poor handling
facilities; and reduce cargo losses, to the benefit of

                            5
all port users. The proposal includes the acquisition of
extinguishers and hoses to complement the current minimal
fire safety equipment.   It also includes the acquisition
of security lights and communications equipment, which
would improve overall security.

Inadequate Controls at Port
Require Immediate Action

Inadequate   controls  at  the   Freetown  port   led  to
significant losses from one shipment which occurred
during a discharge of USG food aid commodities in January
2000.   The losses that occurred during that particular
vessel discharge were in contravention of the peace
accord and USAID regulations and policies. Some examples
of the inadequate controls are: (1) inadequate cargo
handling equipment and stevedore gear at the port, (2)
poorly trained and unsupervised stevedores, and (3)
unreliable port security personnel. As a result of these
internal control weaknesses, the intended beneficiaries
are not receiving all of the planned USG relief
commodities.
     Recommendation No. 1: We recommend that Regional Food
     for Peace Office in Mali, in conjunction with the
     Committee on Food Aid, meet with the Sierra Leone Port
     Authority and Ministry of Transportation to:

      a)   implement the use of private security personnel
           contracted   by  the  cooperating   sponsors  to
           escort/guard the discharge of U.S. Government
           relief   commodities  from   the  ship   to  the
           cooperating sponsors’ warehouses located outside
           the port; and

      b)   develop clearing and forwarding procedures to
           speed the unloading of emergency relief cargoes.

In February 2000, the Chairman of the Committee on Food
Aid (CFA) wrote a letter to the Ministry of Transport and
Communication (MOTC) regarding serious concerns about
commodity losses at the port. The letter stated in part,
“During the week of January 18-27, 2000, the World Food
Program (WFP), World Vision International (WVI) and
Catholic   Relief    Services   (CRS)  were   discharging
humanitarian relief food commodities from three vessels
at port.     Throughout this activity, there were some
instances of internal control weaknesses such as poor
cargo handling and lack of security that resulted in
unacceptable   losses   ranging  from  five  to   fifteen
percent.”

In   its   letter,   the   CFA       recognized   the   difficult

                                 6
constraints under which the port was operating but
requested   the  port’s   urgent  attention   to   various
incidents of poor cargo handling which led to spillage
and losses, and also to the lack of adequate security.
The letter further charged that the port stevedores were
poorly trained and supervised and consistently handled
cargoes in a rough and unprofessional manner leading to
huge losses. Pilfering of commodities at the port was a
concern and was even acknowledged by the port officials.

An additional accusation asserted by the CFA in their
letter   included  physical  threats   to  some   of  the
cooperating sponsor staff for attempting to confront
those believed to be pilfering USG food aid commodities.
 This violates the peace accord that includes a clause to
“guarantee the security of the presence and movement of
humanitarian personnel” as discussed further in this
report.

The three most important internal control weaknesses that
contributed to commodity losses included: (1) unreliable
port security personnel (2) inadequate and obsolete cargo
handling equipment and (3) low-paid government stevedores
who were poorly trained and inadequately supervised.
There were three additional internal control weaknesses
which contributed to an inefficient port operation which
included: (1) weak controls over port access and entry,
(2) lack of specific clearing and forwarding procedures
for emergency relief cargoes, and (3) lack of a
computerized management system.

Regarding the commodity discharge referred to above, WFP
stated their losses were unacceptably high. However, WFP
did not indicate the exact amount of these losses. WVI
reported a commodity loss rate of 2.8 percent at the port
and CRS reported that their damaged/loss cargo amounted
to 10.4 percent.   In our opinion, these port loss rates
are   excessive,  unacceptable   and   require  immediate
attention. In March 2000, the U.S. Ambassador to Sierra
Leone sent a letter urging the Minister of Development
and Economic Planning to take corrective action on this
issue.

Although the audit disclosed that the port has serious
problems that need to be addressed, the audit did not
reveal that any of USAID’s cooperating sponsors incurred
commodity losses as high as fifteen percent from the
commodity discharge of January 2000, as mentioned by the
Chairman of the CFA in the letter referred to above.

For   informational   purposes,   the   following   chart
identifies reported total losses and reported port losses
for the three cooperating sponsors for calendar year
1999.    The largest reported loss by the cooperating

                            7
sponsors was incurred by CRS, which amounted to 12.12
percent.  However, the overwhelming majority of this was
due to looting which occurred outside the port operation.
 Also, note that WVI only reported 2.95 percent in
commodity losses for the year with the majority of these
losses occurring at the port as reflected in the table
below.




             ANALYSIS OF COOPERATING SPONSOR (CS) LOSSES
                  For Calendar Year 1999 (Unaudited)

           Total       Port      Other 2   Total        Total    Port Losses Port Losses
           Cargo      Losses    Losses     Losses       Losses      as % of    as % of
    CS                                                 as % of   Total Cargo Total Losses
                                                     Total Cargo
         Kilograms Kilogram Kilogram Kilogram          Percent     Percent     Percent
                       s        s        s
CARE      8,275,276        0  624,694  624,694              7.55           0            0


WVI       5,155,363   103,277     48,912   152,189          2.95        2.00        67.86


CRS      10,819,214     1,300 1,310,41 1,311,71            12.12        0.01         0.10
                                      4        4

Article XXVII of the peace accord negotiated between the
GOSL and the RUF dated July 7, 1999 states, “…The Parties
also agree to guarantee the security of all properties
and   goods   transported,   stocked    or   distributed  by
humanitarian organizations, as well as the security of
their projects and beneficiaries.      The Government shall
set up at various levels throughout the country, the
appropriate and effective administrative or security
bodies    which   will    monitor    and    facilitate   the
implementation of these guarantees of safety for the
personnel,   goods   and   areas   of    operation   of  the
humanitarian organizations.”

According to AID Regulation 11 (section 211.5), under
“program   supervision”,    the   cooperating    sponsor   is
responsible for providing adequate supervisory personnel
for the efficient operation of the program, including
personnel to organize, implement, control and evaluate
programs involving distribution of commodities.         While
AID  Regulation   11   cannot    specify   internal   control
procedures that should be in effect at various seaports
receiving   USG    commodities,     prudence   requires    an
operational   port    system    that   includes    sufficient
consideration for accepted measures intended to promote
2
  Other losses occurred outside the port, for example, looting, warehouse losses,
infestation, marine losses, etc.


                                              8
the    efficient   discharge       and   accountability   of
commodities.

BHR/FFP disseminated state cable 315309 dated January
1997 (sent to USAID worldwide) on the subject of PL-480
Title II that described the roles and responsibilities of
USAID field missions, cooperating sponsors, and USAID/W.
 Paragraph four of the cable states that the cooperating
sponsor is fully responsible for managing Title II
programs.   It goes on to state that the cooperating
sponsor is responsible for physical control, management,
and accountability of all granted commodities.         We
interpret this to mean that the cooperating sponsors have
a commitment to do all that is necessary to protect
commodities and reduce losses.

In our discussions with port officials, they felt that,
to some extent, the charges made by the USAID cooperating
sponsors against the Sierra Leone Port Authority (SLPA)
were somewhat exaggerated. However, they recognized that
the port had problems in need of immediate attention and
they indicated to us a willingness to address these
issues to the extent that they were able to within the
limitations of their scarce resources.   For example, the
SLPA is the sole entity providing licensed stevedoring
services at the port. However, in our meeting with the
Port General Manager, he commented that privatization of
the port is preferable for a more efficient operation,
although this is a longer-term goal.    He further agreed
that he would permit the international donor community to
use their own private security up to the ship’s hatches
to   address   concerns   about   pilferage   and   cargo
mishandling.   The SLPA officials also acknowledged that
pilfering takes place at the port (as it does at all
ports) but they do not believe that the petty pilfering
has resulted in the large reported losses at the port.
They also pointed out that when Freetown is the last
port-of-call on a ship’s route, as it oftentimes is, they
get blamed for commodity losses and damages that occurred
at other ports in route to Freetown.

The SLPA officials stated that they would like the
international donor community to recognize that they are
working under very difficult constraints in the aftermath
of a civil war, but that they are genuinely interested in
improving the port’s operational environment for the
economic prosperity of the country.        For immediate
redress on some issues such as the purchase of needed
cargo handling equipment or rehabilitation, assistance is
needed from the international community.

The internal control weaknesses at the port discussed
above were complicated by the civil war that has lasted
eight years.    Rebels vandalized the Freetown port in

                               9
January 1999(prior to the peace accord) and stole most of
the supplies and equipment. As a result, the port is in
need  of   rehabilitation,  some  of   which  is  already
underway.




 Cargo handling equipment - worn nets and slings in need
                     of replacement.

Unreliable port security is a major factor contributing
to the problem.     One of USAID’s cooperating sponsors
asserted that ECOMOG is part of the problem, and that the
Freetown port police are not reliable enough to prevent
pilferage. ECOMOG also provided night port security. In
one example, WFP incurred losses at night at the port
while the ECOMOG unit responsible for guarding the port
was on duty. Port officials stated to the auditors that
there were no more night discharge operations; the
chairman of the Committee on Food Aid in Freetown
confirmed this.    The Freetown port security force is
underpaid   and  cannot   be   relied  upon  by   USAID’s
cooperating sponsors to provide adequate security to
assure the safe movement of commodities.

The port stevedores are unionized government personnel
and poorly paid, with little incentive to properly handle
commodities and minimize thefts and diversions.     Also,
the cooperating sponsors believe that the stevedores are
not properly trained based on their observations of how
commodities were handled.    To address this concern, the
General Manager of the port has also agreed that, as part
of a longer-term goal, stevedoring would be privatized.
WFP plans to consider offering incentive pay to the


                           10
stevedores with the objective of providing greater
encouragement to exercise due care and reduce losses.

The situation at the port is further complicated by other
factors including increased corruption in the country,
according to some sources.   The arrival of USG, UN, and
other donor commodities which are easily saleable at the
market and the large quantities of food arriving in bulk
along with other relief commodities provide a tempting
situation that must be better controlled.

Commodity losses are not built into the budgets of USAID
cooperating sponsors and detract from the level of
support that the international community can provide to
the vulnerable groups of Sierra Leone.           This is
particularly important in this environment whereby civil
war has severely crippled the economy. The efficiency of
the Freetown port is vital to the flow of not only relief
commodities but commercial goods as well. Furthermore,
any impediments in the clearing and forwarding process
only serve as obstacles to development and frustrate the
humanitarian efforts of the international community.

An inefficient port operation results in higher port
charges to users and this impedes development and
economic progress in the long-run.

We believe that immediate attention needs to be given to
addressing these port issues and we are encouraging the
RFFPO/Mali to implement the above recommendation as soon
as possible.




                           11
_________________________________________________________
___
Management Comments and Our Evaluation
In its response to our draft report, RFFPO/Mali provided
written comments that are included in their entirety as
Appendix II.   We considered these comments in preparing
the final report.

Our draft report initially included a recommendation that
RFFPO/Mali in conjunction with the CFA meet with the SLPA
and Ministry of Transportation to develop a plan and
timetable to expedite the port rehabilitation project.
Based on RFFPO/Mali’s response to our draft report and
discussions we had in our office with the RFFPO/Mali
representative, we understand RFFPO/Mali’s position that
implementing the project is premature at this time given
the current situation in Freetown and that it is beyond
RFFPO/Mali’s control.    Therefore we have removed this
recommendation from the final report.

This final report includes one recommendation with two
parts.   RFFPO/Mali agreed with Recommendation Nos. 1.a
and 1.b and has made Management Decisions for both parts
of this recommendation.

Recommendation No. 1.a recommended the use of private
security personnel contracted by the cooperating sponsors
to escort/guard the discharge of U.S. Government relief
commodities from the ship to the cooperating sponsors’
warehouses located outside the port.       RFFPO/Mali stated
that the cooperating sponsors successfully lobbied the
Sierra Leone Port Authority to authorize them to hire
private security guards to be present for last month’s
food   arrivals.     RFFPO/Mali    also  stated    that  the
cooperating sponsors reported a much-improved situation
and that they will continue to employ guards for future
food aid shipments. This action constitutes a Management
Decision.      Final   action    on   this    part   of  the
recommendation can take place when RFFPO/Mali provides
documentation such as an agreement signed between the
SLPA  and   the   cooperating   sponsors    authorizing  the
cooperating sponsors to use private security guards.

Recommendation No. 1.b recommended the development of
clearing and forwarding procedures to expedite the
unloading of emergency relief cargoes.          RFFPO/Mali
stated that the CARE Deputy Director has agreed to bring
up the development of port clearing and forwarding
measures at the next CFA meeting.    RFFPO further stated
that the cooperating sponsors would meet with port
officials to have these officials develop procedures to
expedite the unloading of emergency relief cargoes. With
these actions, a Management Decision has been reached.
Final action will be deemed to have taken place when
RFFPO/Mali  provides   a  copy  of  the   final   approved
                             12
procedures to expedite the unloading of emergency relief
cargoes.




                           13
                                                           APPENDIX I
                                                          Page 1 of 2



                            SCOPE AND
                           METHODOLOGY

________________________________________________________________________
Scope
We conducted our Audit of Internal Controls over USAID
Relief Commodities at the Port of Freetown in Sierra
Leone in accordance with generally accepted government
auditing standards.     The audit assessed whether the
system of internal control at the Freetown Port was
adequate to ensure the discharge and dissemination of USG
relief commodities with minimal losses.         The audit
focussed on the Freetown Port facility to determine:

♦    whether the RFFPO/Mali and cooperating sponsors
ensured the establishment of specific internal controls
to minimize commodity losses, and

♦     whether USG relief commodity losses were excessive.

The report includes a chart with unaudited information
which analyzes commodity losses as reported by the
cooperating sponsors for calendar year 1999.        Audit
fieldwork was conducted in Freetown, Sierra Leone at the
port premises from March 9th to 16th, 2000 and at the
USAID Mission in Conakry, Guinea from March 17th to 21st,
2000.

________________________________________________________________________
Methodology
To accomplish this audit objective, we reviewed USAID
policies  and   guidance  related  to  emergency   relief
commodities   and   applicable  laws,   regulations   and
agreements. Particularly, we reviewed USAID Regulation
11, the peace agreement between the GOSL and the
Revolutionary United Front, and the Freetown Port Tariff
Regulations.
                                                APPENDIX I
                                               Page 2 of 2

We conducted interviews with port officials, performed an
inspection of the port facilities, and reviewed the
procedures in place for discharging and handling relief
commodities. We also met with representatives of USAID’s
cooperating sponsors, including CARE, CRS, and World
Vision.  We   visited  CARE,   WFP,   some  Freetown   port
warehouses, and the amputee camp in Freetown.      We took
several photos that are included in the report to better
illustrate the problems of the port and the impact of the
civil war.     We examined loss reporting documents to
determine whether these reports were being filed by the
appropriate parties in a timely manner. We also discussed
and reviewed the recently developed automated tracking
system  of   loss  reports   with   the  Emergency   Relief
Coordinator.

We inquired about the roles and responsibilities of
USAID/Guinea and the RFFPO/Mali in the management and
oversight of the USAID emergency relief program in Sierra
Leone.

While we did not audit WFP, we met with WFP officials who
provided us with useful information for our audit.    WFP
receives a significant portion of the USG food aid
commodities for Sierra Leone.      Also, WFP chairs the
Committee on Food Aid (CFA) in Freetown for which USAID’s
implementing partners are members.     As a part of our
audit, we attended one of the CFA meetings.
APPENDIX II
Page 1 of 2
    APPENDIX II
     Page 2 of
2
                                             APPENDIX III
                                              Page 1 of 1


TABLE OF ACRONYMS


BHR        Bureau for Humanitarian Response
CFA        Committee on Food Aid
CRS        Catholic Relief Services
CS         Cooperating Sponsors
ECOMOG     Economic Community of West African States
           Cease-fire Monitoring Group
ERC        Emergency Relief Coordinator
FFP        Food for Peace
GOSL       Government of Sierra Leone
M/MPI/MIC  Management Innovation and Control Division
OFDA       Office of Foreign Disaster Assistance
OTI        Office of Transition Initiatives
RFFPO/Mali Regional Food for Peace Office in Mali
RUF        Revolutionary United Front
SLPA       Sierra Leone Port Authority
State/PRM  State Department’s Bureau for Population,
           Refugees, and Migration
UNOMSIL    United Nations Observer Mission in Sierra
           Leone
USAID      United States Agency for International
           Development
USG        United States Government
WFP        World Food Program
WVI        World Vision International
